Department of Homeland Security
   Ofﬁce of Inspector General


           DHS Needs to Address Challenges to Its 

             Financial Systems Consolidation 

                         Initiative 





OIG-10-95 (revised)                                   July 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      July 8, 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Office of the Chief Financial
Officer’s efforts to implement DHS’ consolidated financial systems under the
Transformation and Systems Consolidation Project. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3 


DHS Is Taking Steps Toward Developing and Implementing TASC ................................3 


Challenges to TASC Initiative Implementation...................................................................3 


     Key Planning Documents Need to Be Completed.........................................................4 


     Life Cycle Cost Estimate ..............................................................................................5 


     Staffing Plan ..................................................................................................................6


     Independent Verification and Validation Contractor ....................................................7 


     OCIO Involvement in the TASC Initiative ...................................................................7 


Recommendations................................................................................................................8


Management Comments and OIG Analysis………………………………………………9

Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................12 

     Appendix B:           Management Comments to the Draft Report .......................................13 

     Appendix C:           Key Planning Documents Required by MD 102-01 ............................18 

     Appendix D:           Major Contributors to This Report ......................................................19 

     Appendix E:           Report Distribution ..............................................................................20 


Abbreviations
     AD                                     Acquisition Directive 

     APB                                    Acquisition Program Baseline      

     APMD                                   Acquisition Program Management Division     

     CAD                                    Cost Accounting Division      

     CONOPS                                 Concept of Operations     

     CFO                                    Chief Financial Officer 

     CIO                                    Chief Information Officer     

     DHS                                    Department of Homeland Security       

     Exhibit 300                            Capital Asset Plan and Business Case Summary 

     IT                                     information technology      

     IV&V                                   independent verification and validation 

LCCE   Life Cycle Cost Estimate
MD     Management Directive
MNS    Mission Needs Statement
OCFO   Office of the Chief Financial Officer
OCIO   Office of the Chief Information Officer
OIG    Office of Inspector General
OMB    Office of Management and Budget
PM     Program Manager
PMO    Program Management Office
PMP    Project Management Plan
RFP    Request for Proposal
RMTO   Resource Management Transformation Office
TASC   Transformation and Systems Consolidation
USM    Under Secretary for Management
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We reviewed the Department of Homeland Security’s (DHS)
                    efforts to consolidate its component financial systems. Our
                    objectives were to determine the progress DHS is making towards
                    consolidating its systems and identify any challenges it faces to
                    achieve its consolidation objectives.

                    DHS is taking steps toward developing and implementing its
                    systems consolidation program. In May 2008, the DHS Chief
                    Financial Officer (CFO) revised the Transformation and Systems
                    Consolidation (TASC) initiative to acquire an integrated financial,
                    acquisition, and asset management solution for DHS. In January
                    2009, the TASC program issued a Request for Proposal (RFP) for
                    a vendor to develop and implement an integrated acquisition and
                    asset management solution for DHS.

                    Still, DHS faces numerous challenges in implementing the TASC
                    initiative. Specifically, DHS does not have the necessary planning
                    documents in place and approved for this effort; total life cycle
                    cost estimates are not inclusive of all project costs; and, staffing
                    projections have not been finalized. Additionally, DHS’ Office of
                    the Chief Information Officer (OCIO) has had limited involvement
                    with the overall initiative, which increases the risk that the DHS
                    Enterprise Architecture and security requirements may not be
                    incorporated into the new system.

                    We are making five recommendations to improve the TASC
                    program. The Deputy CFO agrees with these recommendations
                    and is taking steps to address them. We are closing one
                    recommendation and the remaining recommendations are
                    considered resolved and will remain open until DHS provides
                    documentation to support that all planned corrective actions are
                    completed.




        DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 


                                             Page 1

Background
                  In an effort to reduce redundancy, weaknesses, and vulnerabilities
                  in its financial systems, DHS initiated the creation of a
                  consolidated financial management system. The program office,
                  Resource Management Transformation Office (RMTO), was
                  chosen to consolidate financial management operations and to
                  ensure that management control systems were comprehensively
                  designed to achieve the mission and execute the strategy of the
                  department. Within the RMTO organization, the TASC program
                  office is tasked with the day-to-day management of DHS’s
                  financial systems consolidation effort.

                  DHS has made several attempts to consolidate its financial systems
                  within the last seven years. The first attempt, known as the
                  Electronically Managing Enterprise Resources for Government
                  Effectiveness and Efficiency project, was canceled in December
                  2005, due to technical challenges in the integration efforts. The
                  second attempt, a task order issued in August 2007, for a solution
                  architect to develop and implement a new system under the
                  Enterprise Acquisition Gateway for Leading Edge Solutions
                  contract ended when no bids were received. The third attempt,
                  called TASC Baseline, focused on moving DHS components to
                  one of two financial systems platforms: SAP or Oracle. On
                  March 17, 2008, the TASC baseline approach ended when a
                  federal court ruled against DHS in the court case of Savantage
                  Financial Services, Inc. vs. United States. The court ruled that
                  DHS’ decision to use Oracle and SAP financial software systems
                  via “Brand Name Justification” was an improper sole source
                  procurement in violation of the Competition in Contracting Act.

                  In May 2008, the TASC initiative was revised to acquire an
                  integrated financial, acquisition, and asset management solution
                  for DHS. This approach is a larger effort than DHS had attempted
                  in previous efforts because it attempts to not only consolidate
                  component financial systems but also to implement DHS-wide
                  asset management and procurement systems. TASC is a
                  department-wide effort co-sponsored by the DHS Under Secretary
                  of Management and the CFO. RMTO serves as the TASC Program
                  Management Office (PMO), providing day-to-day program
                  management and communications with DHS stakeholders.




      DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                          Page 2

Results of Audit
DHS Is Taking Steps Toward Developing and Implementing TASC
            DHS is taking steps toward developing and implementing its financial
            systems consolidation initiative. RMTO, the program office, has developed
            draft planning documents outlining the project’s objectives and processes for
            implementing the TASC initiative. In January 2009, the TASC program
            issued a RFP for a vendor to integrate, test, deploy, manage, operate, and
            maintain the transformed business processes and services of an integrated
            financial acquisition and asset management solution for DHS. The
            selected vendor will develop an integrated financial solution and transition
            DHS components from their current financial systems to the new
            integrated solution and business processes. The program office has
            received several proposals for this initiative and is currently performing
            source selection activities.

            The TASC initiative will have a 5-year base period with five 1-year
            options, at an anticipated contract ceiling of $450 million. Contract award
            is scheduled for the second quarter of fiscal year 2010.


Challenges to TASC Initiative Implementation

            Although DHS has made progress toward implementing the TASC
            initiative, DHS still faces numerous challenges in the successful
            implementation of TASC. Specifically:

                     Key planning documents have not been completed and approved.
                     The Life Cycle Cost Estimate (LCCE) does not include all
                     potential project costs.
                     The TASC initiative has not developed staffing plans.
                     The independent verification and validation (IV&V) contractor is
                     not independent.
                     More DHS OCIO involvement is needed in the TASC initiative

                 Taken together, these challenges, if not addressed, increase the risk
                 that the TASC initiative may not meet its stated objectives.




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                             Page 3

                         Key Planning Documents Need to Be Completed

                         DHS has started but has not finalized several key planning
                         documents for the TASC initiative. Specifically, prior to the
                         issuance of the RFP, many of the solution engineering and
                         planning documents required by DHS policy were not created,
                         approved, and/or finalized. As of October 2009, 10 out of 13 key
                         documents had not been completed. 1

                         For example, DHS has not prepared a Project Tailoring Plan that
                         defines what stages, activities, and artifacts will be completed for
                         the TASC project. Per DHS Acquisition Instruction/Guidebook
                         102-01-001, Appendix B, Section 1.1, this plan should reflect the
                         unique characteristics of the project, provide the best opportunity
                         to deliver the system effectively, and be created and finalized in
                         the initial planning phase of the life cycle. The TASC program
                         office informed us that the Project Tailoring Plan will be
                         developed prior to TASC contract award.

                         Additionally, DHS has not prepared an Acquisition Program
                         Baseline (APB) to formally document the program’s critical costs,
                         schedule, and performance parameters, expressed in measurable,
                         quantitative terms that must be met in order to accomplish the
                         TASC program’s goals. Per DHS Acquisition
                         Instruction/Guidebook 102-01-001, Appendix K, Section B, the
                         program manager is responsible for developing and maintaining
                         the APB and for executing the program to achieve this baseline.
                         Without the tracking and measuring of actual program
                         performance against this formal baseline, the program’s
                         management may not be alerted to potential problems, such as cost
                         growth or requirements creep.

                         DHS has also started but has not finalized the Concept of
                         Operations (CONOPS) document for its financial systems
                         consolidation initiative. Per DHS Acquisition
                         Instruction/Guidebook 102-01-001, Appendix B, Section 3.2, a
                         CONOPS should be created and finalized during the solution
                         engineering planning stage of a project. In addition, DHS
                         Acquisition Instruction/Guidebook 102-01-001, Section II,
                         indicates that the CONOPS should describe from a user’s
                         perspective the current way of operating to execute the assigned
                         mission and contrast this with future methods of operating under
                         future conditions, using potential capability solutions. The

1
 Appendix C, Table of Key Planning Documents Required by DHS Acquisition Instruction/Guidebook
102-01-001, Appendix B, Section 3.2 provides guidance and status on required planning documents.


             DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                                 Page 4

            CONOPS should document current deficiencies and how different
            solutions could meet future challenges and correct current
            shortfalls. The TASC RFP is requiring that the selected contractor
            complete and submit a final CONOPS after the contract has been
            awarded.

            Also, the TASC Project Management Plan (PMP) does not provide
            specific details on the TASC initiative. The TASC PMP provides
            very general information on how a program should be planned.
            Per the TASC PMP, a formal, documented, and approved PMP
            should be developed to define how systems migration projects are
            initiated, executed, monitored, and controlled for the program.

            Finally, TASC has not completed a procurement request for its
            pending contract. A procurement request is an internal contract
            document that describes the goods or services to be obtained and is
            the basis on which a procurement action is initiated. According to
            TASC officials, the procurement request will be prepared before
            the project is awarded in early 2010.

            The development and approval of key planning documents is
            essential to the success of a project of this size and complexity.
            Management should ensure that all planning documents are
            finalized and approved by Office of Chief Financial Officer
            (OCFO), OCIO, and DHS component representatives before
            continuing to contract award to ensure that the department’s needs
            are properly documented for the selected vendor.

            Life Cycle Cost Estimate

            DHS has not completed a TASC Life Cycle Cost Estimate (LCCE)
            of all potential project costs for the TASC initiative. Per DHS
            Acquisition Instruction/Guidebook 102-01-001 projects are
            required to have an LCCE. An LCCE (1) provides a structured
            accounting of all resources and associated costs, (2) includes all past
            (or sunk), present, and future costs for every aspect of the program,
            regardless of funding source, (3) should be prepared in current year
            constant dollars, and (4) enhances decision making, especially in
            early planning and concept formulation of acquisitions.

            Instead of an approved LCCE, for the TASC initiative the project
            is currently using an outdated 2007 Independent Government
            Estimate to support projected funding figures for this project.

            The TASC initiative has provided an outline of anticipated project
            costs in the program’s Office of Management and Budget (OMB)


DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                    Page 5

            Capital Asset Plan and Business Case Summary (Exhibit 300).
            This document estimates that the TASC initiative costs will be
            approximately $450 million. However, this estimate appears to be
            low, in that the Exhibit 300 does not identify any cost estimates for
            the project’s hardware, software, and sunk costs. In testimony at a
            congressional hearing in October 2009, the DHS Acting CFO
            confirmed that the project’s cost estimates do not include all
            project costs.

            Per the Government Accountability Office’s Cost Assessment
            Guide, Best Practices for Developing and Managing Program
            Costs, the ability to generate reliable cost estimates is a critical
            function, necessary to support the OMB capital programming
            process. Without this ability, agencies are at risk of experiencing
            cost overruns, missed deadlines, and performance shortfalls, all
            recurring problems that OMB program assessments too often
            reveal. Furthermore, cost increases often mean that the
            government cannot fund as many programs as intended or deliver
            them when promised.

            Staffing Plan

            The TASC initiative has not developed a project staffing plan. A
            staffing plan should detail the TASC project’s process to plan,
            obtain, orient, assign, and release staff over the life of the project.
            Specifically, a staffing plan provides the various job classifications
            needed to perform project tasks, skill levels of each job
            classification, and the number of days or period of time (start and
            end dates) a person with that skill set is needed on the project.
            Without a detailed staffing plan, the program cannot determine the
            project’s staffing projections to insure that adequate staff would be
            in place to manage this project.

            In addition, per Exhibit 300, dated October 26, 2009, the TASC
            Program Manager is not Project Manager Certified and is not
            expected to be certified until September 30, 2010. Per Chief
            Information Officer (CIO) Council guidance, an Information
            Technology (IT) Project Manager should have a high proficiency
            in both program management and applicable IT program
            management competency skills. Also, the project manager should
            have 2 to 4 years of successful program management experience.
            Certification qualification for the Program Manager/Project
            Manager is also required by DHS Acquisition Directive 102-01
            guidance, Section VII, E.4.




DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                    Page 6

            Independent Verification and Validation Contractor

            The TASC project’s IV&V contractor is not independent of the
            TASC program management office. In large, complex projects
            like TASC, the project manager can become intimately involved in
            the day-to-day project details and may not be able to identify
            project issues in a timely manner. An IV&V is an independent
            entity that evaluates the work generated by the project team and
            can recognize warning signs and potential issues that a project may
            encounter in time for the issues to be addressed. The IV&V team
            monitors and evaluates every aspect of the project, from inception
            to completion. The IV&V team should have experience and
            expertise in areas including IT process and procedures audits,
            project management, and systems analysis and design in order to
            review all aspects of the project.

            The TASC program has an IV&V team in place; however, the
            TASC project’s IV&V function falls short of meeting the
            independence standard, for a number of reasons. Specifically, the
            TASC project director is the Contracting Officer’s Technical
            Representative for the IV&V, and thus by definition is not
            independent. In addition, under TASC program organization
            structure, the IV&V team reports to the TASC project director and
            thus cannot be deemed independent. Finally, the TASC program is
            financially responsible for paying the IV&V team invoices and
            thus is in a position to potentially exert influence on the program.

            According to DHS guidance, IV&V should be performed by an
            individual or organization that is technically, managerially, and
            financially independent of the project in order to provide insight
            over the particular project without conflict of interest. The TASC
            program’s IV&V should be transferred out of RMTO to ensure that
            the function is independent from the program office.


            OCIO Involvement in the TASC Initiative

            OCIO participation in TASC was limited to an oversight role until
            July 2009. The TASC program office restricted OCIO reviews of
            the TASC program due to concerns regarding ongoing litigation
            against the TASC program. Specifically, the TASC program has
            faced several court protests that have not yet been resolved.
            However, despite the restrictions placed on the OCIO by the


DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                    Page 7

                   program office, the OCIO has reviewed the TASC initiative’s
                   Exhibit 300 for Fiscal Year 2010. The TASC initiative scored 26
                   out of a possible 50 points using an OCIO scoring methodology for
                   IT projects. The OCIO considers a score of 25 or less out of 50
                   failing. This score reflects vulnerabilities for the TASC initiative
                   in the areas of security, enterprise architecture, analysis of
                   alternatives, and risk management.

                   Per DHS MD 0007.1, Information Technology Integration and
                   Management, the DHS CIO is responsible for coordinating and
                   implementing an acquisition strategy for delivering and
                   maintaining enterprise IT solutions and services. The CIO reviews
                   all IT projects and coordinates the development and review of the
                   DHS IT portfolio. The CIO also reviews and approves any IT
                   acquisition in excess of $2.5 million. As part of this process, the
                   CIO should partner with the CFO to ensure that IT infrastructure,
                   systems and design, enterprise architecture, and security are
                   properly included in the TASC initiative. The CIO’s involvement
                   throughout a project can help reduce duplicate systems and
                   platforms and enable the department to more effectively allocate
                   resources to provide the greatest benefit to the enterprise.


Recommendations
                   We recommend that the Deputy Chief Financial Officer:

                             1.	 Finalize all planning documents for the TASC initiative
                                 in accordance with DHS Acquisition Directive 102-01
                                 and Acquisition Instruction / Guidebook 102-01-001.

                             2.	 Develop an LCCE that includes all project costs.

                             3.	 Develop a staffing plan for the TASC initiative that
                                 includes certifications, qualifications, and work
                                 experience levels of all program staff required to
                                 manage a project of this size and complexity.

                             4.	 Establish an IV&V function that is independent of the
                                 TASC program office.

                             5. 	 Ensure that the OCIO has sufficient involvement in the
                                  TASC initiative to fulfill its oversight role under DHS
                                  MD 0007.1.




       DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                           Page 8

Management Comments and OIG Analysis
                    We obtained written comments on a draft of this report from the
                    Office of the CFO. The Deputy CFO agreed with our
                    recommendations and provided additional information on how
                    they addressed them. We evaluated the written comments received
                    from the Deputy CFO and have made changes to the report where
                    deemed appropriate. A copy of the response is included as
                    Appendix B.

                    Recommendation #1: DHS concurs with this recommendation.
                    In her response the Deputy CFO states that the TASC Project
                    Tailoring Plan is being finalized and the project team is seeking
                    approval for all TASC planning documents in accordance with
                    DHS SELC guidance, AD 102-01 and the Acquisition
                    Instruction/Guidebook 102-01-001. The TASC project team is
                    working with the DHS CIO and the OCPO’s Acquisition Program
                    Management Division (APMD) to finalize several of these key
                    documents. These documents will be finalized and signed after
                    they are reviewed by the Acquisition Review Board. Additionally,
                    the TASC project Acquisition Program Baseline, Tailoring Plan
                    and CONOPS documents have been finalized since the end of our
                    field work.

                    We agree that the steps DHS is taking, and plans to take, begin to
                    satisfy this recommendation. We consider this recommendation
                    resolved and it will remain open until DHS provides
                    documentation to support that all planned corrective actions are
                    completed.

                    Recommendation #2: DHS concurs with this recommendation. In
                    her response the Deputy CFO states that the TASC PMO
                    developed the TASC LCCE in October 2009 and included all
                    project costs per the Acquisition Instruction/Guidebook 102-01­
                    001. This LCCE incorporated the hardware, software, operations
                    and staffing costs for managing the program. Since October 2009,
                    the TASC PMO has worked with the DHS OCPO’s Cost
                    Accounting Division (CAD) to refine the LCCE methodology and
                    add cost such as legacy system disposition costs. In accordance
                    with AD 102-01 and the OCPO’s CAD, the LCCE is a living
                    document that is updated by the PMO and then reviewed by the
                    CAD at each stage of the DHS SELC. The TASC project team
                    will update the LCCE upon contract award and then will review
                    the LCCE and update it with each Task Order award.



        DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 9

            We agree that the steps DHS is taking, and plans to take, begin to
            satisfy this recommendation. Since DHS made updates to this
            documentation after the end of our fieldwork, we consider this
            recommendation resolved and it will remain open until DHS
            provides documentation to support that all planned corrective
            actions are completed.

            Recommendation #3: DHS partially concurs with this
            recommendation. In her response, the DHS Deputy CFO states
            that the TASC PMO continues to develop program management
            planning documents, processes, and plans in accordance with AD
            102-01. She also indicates that the TASC PMO is currently
            refining its staffing plan to address future requirements for the
            system solution. Additionally, the TASC project team includes
            staff who have experience as project management, Certified
            Contracting Technical Representatives, Certified Public
            Accountants, and DHS Level I and II Program Managers.

            We agree that the steps DHS is taking, and plans to take, begin to
            satisfy this recommendation. We consider this recommendation
            resolved and it will remain open until DHS provides
            documentation to support that all planned corrective actions are
            completed.

            Recommendation #4: DHS concurs with this recommendation.
            DHS moved the Independent Verification and Validation team to
            the OCIO in October 2009.

            We agree with the steps DHS has taken to satisfy this
            recommendation. We consider this recommendation resolved and
            closed.

            Recommendation #5: DHS concurs with this recommendation.
            In her response the Deputy CFO agrees that partnering with the
            OCIO can help reduce risk associated with enterprise architecture
            and system security issues. She states that the OCFO and OCIO
            have worked together on the TASC enterprise architecture, system
            security, hosting at the DHS data center, the TASC Integrated
            Project Team and vendor meetings during the TASC Request for
            Information process. Additionally, OCIO subject matter experts
            have fully participated in the review of the TASC Request for
            Proposal and its supporting documents prior to its release. Finally,
            the TASC PM held a TASC Information Technology Program
            Review with the CIO in October 2009 and a follow-up in
            December 2009.



DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                   Page 10

            We agree that the steps DHS is taking, and plans to take, begin to
            satisfy this recommendation. We consider this recommendation
            resolved and it will remain open until DHS provides
            documentation to support that all planned corrective actions are
            completed.




DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                   Page 11

Appendix A
Purpose, Scope, and Methodology

                      The objective of this audit was to determine whether DHS is
                      making progress in developing and implementing its financial
                      systems consolidation initiative.

                      We reviewed DHS policies, procedures, and documentation, and
                      prior audit reports. We interviewed key government and
                      contractor personnel, and reviewed government-wide rules and
                      regulations that were relevant to this audit. We performed
                      fieldwork at DHS facilities in the Washington, DC, area.

                      We conducted this review between April and October 2009. We
                      provided OCFO, Office of Procurement Operations, and OCIO
                      with briefings concerning the results of fieldwork and the
                      information summarized in this report.

                      We conducted this performance audit in accordance with generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform the audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objectives.

                      We appreciate the efforts by DHS management and staff to provide
                      the information and access necessary to accomplish this review.




          DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                             Page 12

Appendix B
Management Comments to the Draft Report




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 13

Appendix B
Management Comments to the Draft Report




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 14

Appendix B
Management Comments to the Draft Report




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 15

Appendix B
Management Comments to the Draft Report




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 16

Appendix B
Management Comments to the Draft Report




         DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                            Page 17

         Appendix C
         Key Planning Documents Required by DHS Instruction/Guidebook 102-01-001

Life Cycle                                      Purpose of the Document                                       TASC         Date of
Required                                                                                                      Project      Document
Document                                                                                                      Status

Acquisition         Formally documents the program’s critical costs, schedule, and performance                Document
Program             parameters.                                                                               Not          N/A
Baseline                                                                                                      Provided
Concept of          Bridges the gap between the Mission Need Statement (MNS) and the Operational              Draft, No
Operations          Requirements Document by identifying the capabilities needed to perform the               Signatures   10/13/09
                    missions and fill the gaps expressed in the MNS.
Operational         Identifies and provides a number of performance parameters that need to be met            Draft, No
Requirement         by a program to provide useful capability to the user.                                    Signatures   10/2009
Document
Acquisition Plan    Defines how all government human resources, contractor support services, support          Final,
                    services, facilities, hardware, software, telecommunications, and others are              With         9/22/08
                    acquired during the life of the program and project(s).                                   Signatures
Alternatives of     An analytical comparison of the operational effectiveness and other benefits,             Draft, No
Analysis            suitability, and risk of alternatives that satisfy established capability needs.          Signatures   10/2009
Life Cycle Cost     Estimates total cost of a system from initiation through disposal.                        Draft, No
Estimate                                                                                                      Signature    10/2009
Project Tailoring   Defines what stages, activities, and artifacts will be completed for the project.         Document
Plan                                                                                                          Not          N/A
                                                                                                              Provided
MS2A                Determines approval of the threshold.                                                     Final,
Acquisition                                                                                                   With         12/2008
Decision Memo                                                                                                 Signatures
Project             Provides the framework to define the activities/task, responsibilities, and the           Draft, No
Management          timing of events, and is the project manager’s blueprint for program management.          Signatures   10/9/09
Plan
Capability          Serves as the agreement between the Component Head, the Program/Project                   Draft, No    10/9/09
Development         Manager, and the Acquisition Decision Authority on the activities, cost, schedule,        Signatures
Plan                and performance boundaries of the work to be performed in the Analyze/Select
                    phase leading up to Acquisition Decision Event 2A.
Risk                Sets the requirements and establishes policies and procedures for the conduct of          Final,
Management          risk management planning and the preparation, review, and approval of a Risk              With
Plan                Management Plan.                                                                          Signatures   9/2008
Quality             Ensures that delivered products satisfy contractual agreements, meet or exceed            Draft, No
Assurance Plan      quality standards, and comply with approved system development life cycle                 Signatures   N/A
                    processes.
Training Plan       Outlines the objectives, needs, strategy, and curriculum to be addressed when             Document
                    training users on the new or enhanced information system.                                 Not          N/A
                                                                                                              Provided




                        DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                                           Page 18

Appendix D
Major Contributors to This Report

                      Sharon Huiswoud, Director of Information Systems Division
                      John McCoy, Director of Financial Management Division
                      Beverly Dale, Senior Information Technology Auditor
                      Fred Shappee, Program Analyst
                      Sheila Cuevas, Management Analyst
                      Aaron Zappone, Referencer




          DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                             Page 19

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Under Secretary of Management
                      Chief Information Officer
                      Director, RMTO
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Respective Under Secretary
                      DHS Component Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          DHS Needs to Address Challenges to its Financial Systems Consolidation Initiative 

                                             Page 20

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
